W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

21-506

Amec Foster Wheeler plc

Enterprise Products Operating LLC

(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:
Date:

10/8/21

(Type or print) Name Robin C. Gibbs
Mr.

Ms.

Firm

Gibbs & Bruns LLP

Address

1100 Louisiana, Suite 5300

City & State

Houston, Texas

Phone

713.650.8805

Mrs.

Miss

Zip 77002
Email

rgibbs@gibbsbruns.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Patrick E. Gaas; Edward S. Hubbard; Daniel F. Shank; Jason P. Steed; and Adam H. Charnes

